No.

In the

Supreme Court of the United States
BATASKI BAILEY., PRO SE.,
Petitioner,
v.
FAIR & WALKER UNIT OWNERS ASSOCIATION, INC.;
ACCESS MANAGEMENT GROUP, L.P.; and
EMPIRE PARKING SERVICES, INC.,
Respondents.

CERTIFICATE OF SERVICE
I hereby certify that I have on this date served a copy of the
foregoing Petition for a Writ of Certiorari to the Supreme
Court of the United States upon the following individuals, in
the aforesaid action. I have deposited a copy of same in the United
States First Class Mail in a properly addressed envelope with
adequate postage affixed thereon addressed to:
Danielle Russell Esq.
3340 Peachtree Road NE Suite 2100
Atlanta, Georgia 30326
404.926.4138
drussell@gm-llp.com
Lawrence Domenico Esq.
One Premier Plaza Suite 900
5605 Glenridge Dr. NE
Atlanta, Georgia 30342
404.845.1946
ldomenico@mfllaw.com
22

This 30th day.

eptem]

X

BY^Bataski Bailey, Prj

Bataski Bailey, Pro Se
238 Walker St. SW Unit 36
Atlanta, GA 30313
(404) 933-9014
bataskib@gmail.com

23

